<html>
<title> - IMPACT OF FEDERAL LABOR AND SAFETY LAWS ON THE U.S. SEAFOOD INDUSTRY</title>
<body><pre>[Senate Hearing 114-239]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-239
 
  IMPACT OF FEDERAL LABOR AND SAFETY LAWS ON THE U.S. SEAFOOD INDUSTRY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                          AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 6, 2015

                               __________

    Printed for the Committee on Small Business and Entrepreneurship
    
    
    
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    
    


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
                         _________ 
                                 
            U.S. GOVERNMENT PUBLISHING OFFICE
  99-457 PDF          WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                    ONE HUNDRED FOURTEENTH CONGRESS

                              ----------                              
                   DAVID VITTER, Louisiana, Chairman
             JEANNE SHAHEEN, New Hampshire, Ranking Member
JAMES E. RISCH, Idaho                MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RAND PAUL, Kentucky                  HEIDI HEITKAMP, North Dakota
TIM SCOTT, South Carolina            EDWARD J. MARKEY, Massachusetts
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
JONI ERNST, Iowa                     MAZIE K. HIRONO, Hawaii
KELLY AYOTTE, New Hampshire          GARY C. PETERS, Michigan
MICHAEL B. ENZI, Wyoming
                  Zak Baig, Republican Staff Director
                 Ann Jacobs, Democratic Staff Director
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Vitter, Hon. David, Chairman, and a U.S. Senator from Louisiana..     1
Shaheen, Hon. Jeanne, Ranking Member, a U.S. Senator from New 
  Hampshire......................................................     2

                               Witnesses
                                Panel 1

Dr. Steven Solomon, Deputy Associate Commissioner for Regulatory 
  Affairs, U.S. Food and Drug Administration.....................     8
Ms. Portia Wu, Assistant Secretary of the Employment and Training 
  Administration, U.S. Department of Labor.......................    26

                                Panel 2

Dr. Mike Strain, Commissioner, Louisiana Department of 
  Agriculture and Forestry.......................................    43
Mr. John P. Connelly, President, National Fisheries Institute....    51
Mr. Frank Randol, President, Randol Inc..........................    60

          Alphabetical Listing and Appendix Material Submitted

Connelly, John P.
    Testimony....................................................    51
    Prepared statement...........................................    53
Highliner Foods
    Letter Dated May 5, 2015.....................................     4
Randol, Frank
    Testimony....................................................    60
    Prepared statement...........................................    63
    Addendum 1...................................................    74
    Addendum 2...................................................    77
    Addendum 3...................................................    79
    Addendum 4...................................................    81
    Addendum 5...................................................    90
    Addendum 6...................................................   112
    Addendum 7...................................................   123
    Addendum 8...................................................   142
    Addendum 9...................................................   149
    Addendum 10..................................................   177
    Addendum 11..................................................   193
    Addendum 12..................................................   212
    Addendum 13..................................................   237
    Addendum 14..................................................   263
Shaheen, Hon. Jeanne
    Opening statement............................................     2
    Prepared statement...........................................     6
    Letter Dated April 30, 2015..................................    72
Solomon, Dr. Steven
    Testimony....................................................     8
    Prepared statement...........................................    11
    Responses to questions for the record........................   264
Strain, Mike
    Testimony....................................................    43
    Prepared statement...........................................    47
Vitter, Hon. David
    Opening statement............................................     1
Wu, Portia
    Testimony....................................................    26
    Prepared statement...........................................    28
    Responses to questions for the record........................   269


  IMPACT OF FEDERAL LABOR AND SAFETY LAWS ON THE U.S. SEAFOOD INDUSTRY

                              ----------                              


                         WEDNESDAY, MAY 6, 2015

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:34 p.m., in 
Room SR-428A, Dirksen Senate Office Building, Hon. David 
Vitter, Chairman of the Committee, presiding.
    Present: Senators Vitter, Risch, Fischer, Ayotte, Shaheen, 
and Cantwell.

 OPENING STATEMENT OF HON. DAVID VITTER, CHAIRMAN, AND A U.S. 
                     SENATOR FROM LOUISIANA

    Chairman Vitter. Good afternoon. We are going to start our 
hearing today on the Impact of Federal Labor and Safety Laws on 
the U.S. Seafood Industry. Thanks for joining us today.
    We are going to be hearing from two panels of expert 
witnesses and stakeholders, a Federal panel who I will 
introduce in a minute, and then a stakeholder panel. I want to 
thank all of our witnesses for being here today to testify on 
these important issues.
    As anyone who has visited Louisiana knows, we enjoy great 
quality seafood and that plays a major role in our culture and 
our economy, and this is true for other States in the United 
States and it is an important part of our economy. In 
Louisiana, that seafood industry supports 20,000 jobs in the 
State with an annual economic impact of over $1.7 billion.
    More regionally, the Gulf States produce 70 percent of the 
nation's oysters, 69 percent of domestic shrimp, and are a 
leading producer of domestic hard- and soft-shell blue crabs. 
More broadly, the seafood industry is responsible for creating 
jobs and revenue that supports so many families along the Gulf, 
in Alaska, and elsewhere, including the East Coast and the West 
Coast.
    Seafood processors in Louisiana and across the Gulf Coast 
rely on seasonal foreign workers to fill the most labor-
intensive positions throughout the sector. These workers come 
to the United States legally under the H-2B visa program. This 
program is vital to many in the seafood business, as many of 
these operations take place in small rural communities where 
access to a stable, reliable labor force can be extremely 
difficult.
    Recently, we have seen the difficulty of compliance with 
this program increase, most notably the Department of Labor's 
decision to stop accepting private wage rate surveys, which has 
often forced businesses to reallocate their financial 
resources, and that has been a big, big cost increase for these 
businesses.
    Another area that requires attention is ensuring the safety 
of seafood that is being imported into the country. It is 
imperative that we ensure that foreign imports are playing by 
the same rules and regulations that our domestic producers 
operate under, and that is one of the reasons I introduced the 
Imported Seafood Safety Standards Act. This legislation 
increases inspection rates, quality standards, and penalties in 
order to protect American families.
    In closing, we need to make sure that Federal regulations 
of all types, like the two areas I have highlighted, do not 
unfairly and negatively impact our small domestic seafood 
providers. What Washington bureaucrats often fail to realize is 
that their rulemaking can literally put some small businesses, 
like domestic seafood producers, out of business. So, we need 
to focus on these and other regulatory areas.
    Again, I thank everyone for being here today and I look 
forward to our discussion.
    With that, I will turn it over to our Ranking Member, 
Senator Shaheen.

  OPENING STATEMENT OF HON. JEANNE SHAHEEN, RANKING MEMBER, A 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Thank you, Mr. Chairman, and thank you to 
all of our panelists this afternoon for being here.
    As the Chairman said, seafood is a big issue in my home 
State of New Hampshire just as it is in Louisiana. Even though 
we only have 18 miles of coastline, it is an industry that is 
important to the State, both because of our tourism industry 
and the fishing--the pleasure boat fishing that goes on off the 
coast of New Hampshire, but also because we have not only a 
small fishing industry, but we also have a fish processing 
industry in New Hampshire.
    And, Mr. Chairman, in the interest of brevity and because I 
have to leave early, I am going to submit my full statement for 
the record, but I just wanted to raise a couple of concerns.
    One is not directly related to this hearing, but since we 
are talking about seafood, I feel compelled to talk about the 
concerns that we have in New Hampshire and the Northeast 
relative to the fishing quotas that have been set by the 
Department of Commerce and specifically by NOAA. Over the past 
few years, the Federal Government has found that the declining 
levels of cod in the Gulf of Maine have been dramatic. There is 
some disagreement about that among scientists and among the 
fishing industry, but they have set very dramatic, very low 
quotas that have almost totally decimated the fishing industry 
in New Hampshire, and again, I appreciate that that is not the 
subject of today's hearing, but it is an issue that we are very 
concerned about and I think it is something that we need to 
deal with because of its impact on our small business fishing 
fleet in New Hampshire.
    The other issue that is relevant to today's discussion is 
one that is having an impact in New Hampshire, as well, and 
that is the impact of creating a separate Federal program to 
remove catfish inspection authority from the FDA. As some of 
you probably already know, the 2008 farm bill transferred the 
inspection of catfish alone from FDA to the Department of 
Agriculture and it left the FDA with the jurisdiction of all 
other seafood products. That means that all of our seafood 
processors that handle catfish will now be subject to two 
separate sets of regulations. This is a costly and unnecessary 
burden on these businesses. It will kill jobs and hurt economic 
development.
    And, in fact, just the prospect of this regulation has put 
a freeze on job creation in some of those companies in New 
Hampshire. One seafood company, High Liner Foods, which I have 
had the opportunity to tour, has put on hold the job expansion 
that they would like to do because of the uncertainty around 
these regulations, and Mr. Chairman, I would like to enter this 
letter from High Liner Foods for the record, if I can.
    [The letter follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

    
    Chairman Vitter. Without objection.
    Senator Shaheen. This duplicative regulation does not just 
affect the seafood industry and it is not really about food 
safety, I believe. I think it is an effort to set up trade 
barriers against foreign catfish that will dramatically affect 
not only the seafood processing business in New Hampshire and 
this country, but it also could put us open to challenge at the 
WTO and trade retaliation against other agricultural 
industries.
    So, Mr. Chairman, I have been working with other members of 
the Senate to try and repeal this duplicative program. I hope 
we can do that. I think it is unnecessary and I hope that we 
will have the opportunity to do that and to further discuss 
this, not just in this committee, but when we get to the floor 
of the Senate.
    So, thank you again to our panelists for being here and I 
look forward to the discussion today.
    [The prepared statement of Senator Shaheen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Chairman Vitter. Thank you, Senator Shaheen.
    We will now go to our first panel of witnesses, our Federal 
panel. I will introduce both and then we will hear their 
testimony and have discussion following their testimony.
    Dr. Steven Solomon is Deputy Associate Commissioner for 
Regulatory Affairs at the FDA, and he was appointed to that in 
April 2014. Prior to his appointment, he served in several 
capacities at the FDA since 1990. Dr. Solomon holds a D.V.M. 
degree from Ohio State University and a Master's of Public 
Health from Johns Hopkins University. Prior to joining the FDA, 
he owned and operated a private veterinary practice.
    And, he will be followed by Ms. Portia Wu, Assistant 
Secretary of the Employment and Training Administration within 
the U.S. Department of Labor. She was appointed to that in 
April 2004 and she now leads that Employment and Training 
Administration with its mission to address our nation's 
workforce needs through high quality training and employment 
programs. Prior to that, she held a number of positions in 
public, nonprofit, and private sector situations, including 
serving at the White House on the Domestic Policy Council as 
Special Assistant to the President for Labor and Workforce 
Policy. Ms. Wu holds a Yale Law School degree and a degree from 
Yale College and a Master's degree from Cornell, and is 
originally from Albany, New York.
    Welcome to both of you, and we will start with Dr. Solomon.

    STATEMENT OF STEVEN M. SOLOMON, D.V.M., M.P.H., DEPUTY 
 ASSOCIATE COMMISSIONER FOR REGULATORY AFFAIRS, FOOD AND DRUG 
  ADMINISTRATION, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Solomon. Good afternoon, Chairman Vitter, Ranking 
Member Shaheen, and members of the committee. I am Dr. Steve 
Solomon, Deputy Associate Commissioner for Regulatory Affairs 
at the Food and Drug Administration, and I appreciate the 
opportunity to appear before you today to discuss the agency's 
ongoing efforts to oversee the safety of the U.S. seafood 
supply.
    FDA has a strong regulatory program in place to ensure the 
safety of both domestic and imported seafood. In fact, the 
Hazard Analysis and Risk Preventive Control framework of FDA's 
seafood safety program is a basis for the preventive controls 
requirements for other FDA regulated foods called for in the 
FDA Food Safety Modernization Act, or FSMA. The agency has a 
variety of tools to ensure compliance with seafood safety 
requirements, including inspections of both domestic and 
foreign processing facilities, a hundred percent electronic 
screening of all imported products, examination of sampling of 
domestic seafood and seafood offered for import in the United 
States, domestic surveillance sampling of imported products, 
inspection of seafood importers, and foreign country program 
assessments.
    In today's testimony, I want to discuss FDA's regulatory 
framework for overseeing the safety of the U.S. seafood supply, 
emphasizing the agency's risk-based efforts with regard to 
imported seafood.
    Processors of fish and fishery products are subject to 
FDA's Hazard Analysis Critical Control Point, or HACCP, 
regulation. In short, the regulation requires both domestic and 
foreign processors of fish and fishery products to understand 
the food safety hazards associated with their process and 
product and require a preventive system to control for those 
hazards. Every processor is required to have and implement a 
written HACCP plan whenever a hazard analysis reveals one or 
more food safety hazards that are reasonably likely to occur. 
Foreign processors who export seafood to the United States also 
have to have--apply to the HACCP regulation.
    In addition, HACCP regulations require importers to 
understand the hazards associated with the products they are 
importing and to take positive steps to verify that they obtain 
shipments from foreign processors who comply with these 
requirements.
    In recent years, there have been reports of seafood in the 
United States being labeled with incorrect market names. FDA is 
aware that there may be economic incentives for some seafood 
producers and retailers to misrepresent the identity of the 
seafood species that they sell to buyers and consumers. While 
seafood fraud is often an economic issue, we have heightened 
concerns when species substitution poses a public health risk.
    The agency has invested in significant scientific 
advancements to enhance its ability to identify seafood species 
using state-of-the-art DNA sequencing. FDA is actively working 
to transfer this technology, which will enable the seafood 
industry and others to monitor and test their products to 
confirm the species purchase is correct.
    Turning now to imports specifically, it is the importers' 
responsibility to offer for entry into the United States 
product that is fully compliant with all applicable U.S. laws. 
FDA has numerous tools and authorities that enable the agency 
to take appropriate action regarding imported product. In 
recent years, the agency has significantly increased its number 
of foreign food inspections. Furthermore, if FDA requests to 
inspect a foreign facility and is refused, FSMA gave the agency 
the authority to not allow that facility's food submission into 
the United States.
    Besides HACCP inspection of foreign facilities, the agency 
also conducts surveillance of food offered for import at the 
border to check for compliance with U.S. requirements. FDA 
reviews all import entries electronically prior to the product 
being allowed into the country. The agency has implemented an 
automated screening tool, the PREDICT system, which 
significantly improves FDA's screening of imported food. 
PREDICT utilizes the admissibility history of the firm and/or a 
specific product and incorporates the inherent risk associated 
with the product. For example, a PREDICT review includes the 
facility inspection history, data quality concerns, sample 
analytical findings, and type of product that the firm offers 
for entry into U.S. commerce.
    Based on this electronic screening, the agency will direct 
resources to the most critical entries that have the greatest 
impact on public health. A subset of the import entries flagged 
may be physically inspected and/or sampled at varying rates 
depending on the type of the seafood product and the risk 
factors described.
    Another key regulatory tool for controlling imported goods 
is the Import Alert. Import Alerts inform FDA field personnel 
that the agency has sufficient evidence or other information 
about a particular product, producer, shipper, or importer to 
believe that future shipments of an importer product may be 
violative. On the basis of that evidence, FDA field personnel 
may detain the article that is being offered for import in the 
United States without physically examining the product. The 
agency has over 45 active seafood Import Alerts that focus on 
imports from certain firms, products, and/or countries based 
upon past violations or public health concerns.
    An Import Alert shifts the burden to the importer to 
demonstrate that the product meets FDA regulatory requirements. 
For example, FDA imposed a country-wide Import Alert on five 
aquaculture species from China in June 2007 due to the presence 
of unapproved animal drugs. These entries are currently subject 
to private laboratory testing before they are allowed into 
domestic commerce.
    Finally, I would like to note that the FDA is working 
globally to better accomplish its mission to promote and 
protect the public health of the United States. As one example, 
the agency has conducted foreign country assessments to 
evaluate the country's laws for and implementation of good 
aquaculture practices. FDA uses the information from country 
assessments to target better surveillance sampling of imported 
aquaculture products, informs its planning of foreign seafood 
HACCP inspections, provide additional evidence for potential 
regulatory actions, and improve collaboration with foreign 
government and industry to achieve better compliance with FDA's 
regulatory requirements.
    In closing, oversight of the safety of the U.S. food supply 
continues to be a top priority for FDA. The agency has a strong 
regulatory program in place for seafood products. We will 
continue to work with our domestic and international partners 
to ensure the safety of both domestic and imported seafood.
    Thank you again for the opportunity to appear before you 
today, and I would be happy to answer any questions.
    [The prepared statement of Dr. Solomon follows:]
   
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
   
    
    Chairman Vitter. Thank you very much, Doctor.
    Now, we will hear from Ms. Wu. Welcome.

STATEMENT OF PORTIA WU, ASSISTANT SECRETARY FOR EMPLOYMENT AND 
               TRAINING, U.S. DEPARTMENT OF LABOR

    Ms. Wu. Thank you, Mr. Chairman. Chairman Vitter, Ranking 
Member Shaheen, members of the committee, thank you for having 
me here today to discuss the H-2B program and the seafood 
industry. My name is Portia Wu and I am the Assistant Secretary 
at the Employment and Training Administration at the Department 
of Labor. Together with the Department of Homeland Security, we 
administer the H-2B program.
    The H-2B program allows employers to meet legitimate needs 
for temporary foreign workers and the Department takes very 
seriously its statutory responsibility to administer this 
program and to ensure that U.S. workers have meaningful access 
to these job opportunities, that their wages and working 
conditions are not adversely affected. These efforts also help 
protect foreign-born workers from exploitation.
    The Department recognizes the vital role that the H-2B 
program plays for the seafood industry. Many seafood employers 
are multi-generational family-owned businesses and they are a 
source of cultural pride in coastal areas. The jobs these 
businesses provide are critical to local communities and create 
additional jobs in other related industries.
    And, Mr. Chairman, as you referenced, these businesses are 
often in remote or rural areas and so they can struggle to 
attract and retain a sufficient workforce necessary to provide 
seafood products for the United States and for the world. Thus, 
many do depend on temporary workers, including temporary 
foreign workers.
    Over the last five years, employers in some of the largest 
seafood producing States, like Louisiana and Maryland, were 
among the top ten users of the H-2B program, and last year, 
approximately 55 percent of the seafood jobs certified by the 
Department of Labor were located in the Gulf Coast States, 
ranging from shrimp boat deckhands in Texas to seafood and 
crawfish processors and packagers in Louisiana.
    We understand that seafood employers and others are 
impacted by the current annual 66,000 number cap on H-2B 
workers. That cap is set by Congress. And, we are again seeing 
demand nationwide that exceeds that cap.
    The Department is committed to maintaining a fair and 
reliable application process for those who use the program. 
However, unfortunately, in recent years, we have faced 
difficulties in achieving stability in this program because the 
Department of Labor's H-2B regulations have been subject to 
numerous cases brought in court by both employers and worker 
advocates. In fact, this litigation ultimately resulted in 
temporarily suspending the processing of H-2B applications 
earlier this year.
    Last week, in order to quickly reinstate the H-2B program 
and also to bring certainty, stability, and continuity to that 
program, the Department of Labor and the Department of Homeland 
Security jointly issued two new regulations. One is an interim 
final rule establishing the overall framework for the H-2B 
program. I should note that is an interim final rule, so it is 
open for public comment until June 29. The other is a final 
updated wage rule that allows the use of private wage surveys 
in certain circumstances in keeping with a recent court 
decision.
    These rules immediately restore processes for approving 
prevailing wage requests and labor certification applications 
so the program can continue to operate. They expand employer 
requirements for recruitment and consideration of U.S. workers 
so United States workers have a fair shot at finding and 
applying for these jobs. It also permits employers in the 
seafood industry to continue to stagger the entry of their H-2B 
workers into the United States.
    The regulations strengthen worker protections by clarifying 
employer obligations with respect to wages, working conditions, 
and benefits that must be offered to H-2B and U.S. workers 
alike.
    And, finally, as I noted, the rules explicitly include the 
use of private wage surveys, which were restricted by a recent 
court decision, and they--so, we set guidelines for how these 
surveys can now be used, and that includes State surveys, which 
are often used in the seafood industry.
    Both the Department of Labor and DHS are trying to ensure a 
smooth transition between the former regulations and the new 
rules. First and foremost, anyone who had already applied under 
the old rules or who were in line does not have to change 
anything. They will continue to operate under the prior 
regulations.
    Second, the new regulations allow an expedited process for 
employers who have a start date of need before October 1, 2015, 
so people will have time to quickly transition.
    In conclusion, the Department of Labor strives to maintain 
an H-2B program that is both responsive to legitimate employer 
needs where qualified U.S. workers are not available and to 
provide adequate protections for U.S. and foreign temporary 
workers. Doing so is not only good for law-abiding employers, 
including employers in the seafood industry, but also for the 
many U.S. workers seeking jobs in fields that rely heavily on 
the H-2B program.
    Thank you again for this opportunity and I look forward to 
answering your questions.
    [The prepared statement of Ms. Wu follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Vitter. Okay. Thank you, Ms. Wu, and we will start 
with our questions, and let me begin with you on one of the 
topics you discussed directly, and that is private wage 
surveys.
    Is it not correct that the new rule you were describing 
greatly limits compared to past practice, greatly narrows and 
limits the use of private wage surveys?
    Ms. Wu. Senator, it is true that in December last year, we 
had--our previous rule allowed significant use of private wage 
surveys. That use was enjoined by a court in December of last 
year and the court's opinion lays out a great deal of 
reasoning, including concerns about how private wage surveys 
might undercut wages and some other reasons that, for example, 
surveys that use only entry-level wages are not permissible 
under the law. They found that to be a violation of the law.
    At that time, we had to immediately suspend the use of 
surveys because of the court's order. However, with our new 
rule, we allow surveys in limited circumstances. There are 
some, and again, it is in keeping with the court's order, we 
believe, where, for example, an occupation is not well 
represented in the Occupational Employment Statistics.
    We also specifically allow for State conducted surveys, and 
I know this is a subject of particular interest in the seafood 
industry because many States do this. There are some basic 
criteria in keeping with the court's order. For example, as I 
mentioned, you have to look at average wages in an industry, 
not simply entry-level wages. But, we believe that this may be 
an opportunity for many in the seafood industry to take 
advantage of this provision. We actually--I was talking with 
some of your folks from Louisiana today and we are putting out 
some assistance next week to explain to people how they can use 
these surveys.
    In the transition provisions, we also said that, for 
example, if you already got your certification but you have not 
brought your workers in and you are wondering, can I go back 
and get a new survey wage, as long as it complies with our 
basic criteria, we put in a provision to allow people to go 
back and adjust that wage.
    Chairman Vitter. Well, Ms. Wu, as you know, there is a lot 
of concern that the new system is too narrow and narrows the 
use of these surveys way beyond anything that would be 
absolutely required or demanded by the court. What is your 
reaction to that critique, which I think is a fair one?
    Ms. Wu. Thank you, Senator. I think we believe that the new 
provisions are in keeping with the court's order. I should 
note, the State-provided surveys, frankly, we may be getting 
some criticism from the other side that it may be going beyond 
what the court allowed. So, there are many points of view on 
it.
    But, I do think that this provision of State-provided 
surveys may be an avenue that industries, particularly the 
seafood industry, could take advantage of and have taken 
advantage of in the past.
    Chairman Vitter. Does use of these State surveys allow for 
recognizing differences which exist from one local area to 
others within the State?
    Ms. Wu. Yes, Senator, it could. Obviously, it is up to the 
State as to what level of detail is conducted in the surveys. 
They certainly could provide a survey where there are 
differences in locality. Obviously, with different sorts of 
tasks in the industry, they would have different levels of 
wages. And, the Department is not in the business of dictating 
how employers should pay their wage or not. I know some 
employers, for example, use piece rate. They will be able to 
continue doing so.
    Chairman Vitter. Okay. And, Dr. Solomon, my understanding 
is that in 2014, only about 2.77 percent of all seafood imports 
were inspected. Do you think that percentage is adequate, and 
if not, what does the FDA plan to do differently?
    Dr. Solomon. So, the seafood safety system that I described 
during my testimony is multi-faceted, so there are many 
components of it. First, it is putting the Hazard Analysis 
Critical Control Point regulations into place, which puts the 
burden on the processor to produce safe product. Then, we have 
oversight by doing foreign inspections of them. Then, we also 
conduct inspections of HACCP regulations by the importers.
    So, the testing that takes place at the border is a 
verification activity or a surveillance activity to try and 
find if there is any flaws in the system and how it is working 
and to identify them and it is verification activities.
    So, we test at different rates a sampling. So, taking 
generic rates for seafood, we test higher rates for certain 
products, certain commodities, higher risk areas in much higher 
rates than that because we want to have additional verification 
for those particular aspects which pose the greatest safety 
concerns.
    Chairman Vitter. I understand all of that. I did not mean 
to suggest by my question that you just do one thing, you just 
stop 2.77 percent at the border and test it. So, as part of 
that overall effort, do you think the net inspection rate of 
2.77 percent is adequate?
    Dr. Solomon. Examination at the border as a verification 
activity at the various rates we do, we think is a viable 
control measure in light of all the other measures that we have 
in place.
    Chairman Vitter. So, you have no plans to increase it?
    Dr. Solomon. With the resources we currently have, we would 
not just increase sampling testing. If the agency had 
additional resources, we would focus on all the aspects of the 
framework, the regulatory structure that I described.
    Chairman Vitter. Why would you increase it if you had more 
resources?
    Dr. Solomon. Greater oversight and greater confidence in 
how the system is working. We would do more foreign 
inspections. We would do more importer examinations. But, once 
again, not on a universal basis, on a risk basis, on the 
products----
    Chairman Vitter. So, the level you do now is not optimal?
    Dr. Solomon. Uh, we think we actually have very few 
foodborne illnesses associated with seafood products, but with 
more resources, the agency could do more.
    Chairman Vitter. Okay. I am just trying to understand. You 
are suggesting it is adequate, but in the next sentence, you 
said you would certainly do more with more money.
    Dr. Solomon. So, it is a risk basis in terms of looking at 
the products that are coming in. With additional resources, we 
could look at lower levels of risk. We are looking at the 
highest levels of risk now.
    Chairman Vitter. Doctor, certainly in the past, the 
following has happened. A batch of actually tested and rejected 
seafood imports has been simply shopped to another port of 
entry. What in your overall system today categorically prevents 
that?
    Dr. Solomon. So, we have a notification system, electronic 
notification system. When we refuse an entry, that electronic 
notification system not only notifies Customs and Border 
Protection, but all the other FDA district offices and ports.
    Chairman Vitter. And, so, how is that batch tagged 
indelibly so that that notification is meaningful so that those 
other ports can identify the same batch we are talking about?
    Dr. Solomon. So, as you may be aware, we have been working 
for many years to try and get a marking rule that would provide 
that marking of the product. That is not in place yet, but 
right now, we do notifications based off the data that we have 
of who the importer is, what the commodity line is, and make 
sure that everyone is aware about that shipment was refused.
    Chairman Vitter. So, if they--so, there is not a set 
marking rule, so if they change the packaging or any of the 
markings, they could very possibly get away with what I am 
describing?
    Dr. Solomon. The system is not foolproof, I agree with you, 
but we do do notifications.
    Chairman Vitter. Okay. Well, I mean, I would suggest that 
is a bigger hole than simply saying it is not absolutely 
foolproof, but we will pursue that.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Dr. Solomon, as I said in my opening statement, I am very 
concerned that we are in the process of setting up a new 
program under the Department of Agriculture to separate catfish 
out from all other seafood and inspect them separately. I think 
it is duplicative and it does not make sense.
    So, I wonder if you could talk a little bit about the 
program that has been operating under FDA, which up until now 
has had the responsibility for inspecting catfish. Can you tell 
us how it has functioned and whether or not catfish consumption 
has posed a risk to human health. Is there a reason why we 
should be setting up a separate program?
    Dr. Solomon. So, the last part of the question, catfish is 
not one of the species that we particularly target as being a 
risky product. It is not a product that is typically eaten or 
consumed raw. It is cooked beforehand. It is not put into 
reduced oxygen packaging, some of the other risk factors that 
may be associated with it. So, we handle catfish under the same 
framework that I described before. We have both inspections, 
domestic inspections, foreign inspections, the HACCP controls 
in place that have been adequately controlling issues 
associated with catfish.
    Senator Shaheen. So, and just to be clear, it is not the 
FDA or the Department of Labor or USDA that has set up this 
program separately. It was Congress that did this in the farm 
bill. But, there was not a safety risk to human health from 
catfish that triggered this effort, is that how you would 
analyze the situation?
    Dr. Solomon. I am not aware of any specific safety hazards 
unique to catfish.
    Senator Shaheen. Thank you. And, I know it may be hard for 
you to put a cost figure on the inspection of catfish under the 
FDA jurisdiction, that it may take you some time to come up 
with that. It is my understanding that right now, the USDA's 
catfish inspection program, it is estimated that it will cost 
about $14 million a year to operate. So, I am going to ask you 
to take for the record and try and get for this committee the 
cost of the inspection of catfish under FDA jurisdiction, if 
you would.
    Dr. Solomon. We would be happy to provide that back to you.
    Senator Shaheen. Okay. Thank you.
    Ms. Wu, I appreciate the fact that the Department is in a 
challenging position relative to how to make the H-2B visa 
program work, given that we have not yet taken up comprehensive 
immigration reform, which would go a long way towards 
addressing this challenge. But, in the meantime we do have 
small businesses in my State, we heard from the Chairman in 
Louisiana, who are using the H-2B program and are confused 
about how the new rules will affect their business. So, can you 
talk a little bit about how you are addressing outreach to 
those small businesses that are affected.
    Ms. Wu. Absolutely, Senator. As I noted, we have a bunch of 
fact sheets on our Web site. We are also doing some sort of 
webinars and outreach next week to talk with people. We 
always--we have frequent listening sessions. We recognize the 
use of this program by small business. We are happy to answer 
any questions.
    We have very detailed questions about, you know, if I 
already submitted my application, what happens to me now. And, 
I think, as I noted, for people who had already submitted their 
application before this whole court case in April, they can 
just keep going along. They got approved. They can keep going 
along, running the program the way they were going to do it 
this summer. There will be changes in the future.
    For those who want workers before October 1, we put in a 
sort of expedited process. As you may know, DHS administers the 
cap, but the cap was hit fairly early this year. But, we 
continue to process requests for labor certification, because 
there are some exceptions. So, we are happy to answer any 
questions. We are doing outreach to small businesses.
    Senator Shaheen. And, so, when you advertise those webinars 
that you are doing, do you notify the Small Business 
Administration so they can get it out to the Small Business 
Development Centers to share that with other businesses around 
the country? How do you get the word out that you are doing 
those kinds of webinars?
    Ms. Wu. Well, first and foremost, we use the contacts list 
that we have of the users of the program, because, obviously, 
the Small Business Administration deals with many, many 
businesses who do not even know what the H-2B program is.
    Senator Shaheen. Right.
    Ms. Wu. So, we really focus on the contacts that we have 
and work with our colleagues at DHS and others to make sure 
that we get the word out. But, if you have other suggestions or 
if you are concerned about the employers in your State, we 
would be happy to conduct some targeted outreach there. We also 
work with many of the associations who follow these regulations 
very closely. We make sure we get the word out to them. And, we 
have regular listening sessions with them to hear about their 
concerns.
    I will note the new comprehensive rule is an interim final 
rule. We took comments on a similar rule in 2011-2012. We made 
some changes, in part in recognition of the concerns of small 
business. We are taking comments again and we very much welcome 
people's comments on how we can improve the program and make it 
usable for them.
    Senator Shaheen. So, just because I am still not quite 
clear, if anybody has--if a company has applied for H-2B visas 
in the past, would they get a notification of proposed rule 
changes, of various outreach efforts that you are doing 
automatically because they are on your list?
    Ms. Wu. They should. They should. I will check with my 
operations people----
    Senator Shaheen. Okay.
    Ms. Wu. Yes, we do.
    Senator Shaheen. Behind you, they are nodding.
    [Laughter.]
    So, hopefully, that means that any New Hampshire company 
that has applied in the past will get those notifications.
    Ms. Wu. Yes, that is our hope.
    Senator Shaheen. Thank you very much.
    Chairman Vitter. Thank you.
    Next is Senator Ayotte.
    Senator Ayotte. Thank you, Chairman.
    I wanted to follow up on the question that Senator Shaheen 
had asked Dr. Solomon about the catfish program. As far as I 
can tell, the U.S. FDA handles seafood inspections for all 
other forms of seafood, correct?
    Dr. Solomon. That is correct.
    Senator Ayotte. And, so, there is no reason why you could 
not continue to handle independently the inspection as you did 
before Congress on its own created this duplicative inspection 
regime, the inspection of catfish, which is actually a low-risk 
species, correct?
    Dr. Solomon. We are currently, since that rule is not in 
effect yet, we are currently handling all the catfish 
inspections.
    Senator Ayotte. And in the end, as I understand it--you 
know, it has been interesting to me, we have nine GAO reports 
on this topic, and those nine GAO reports actually consistently 
recommend eliminating the newly created by Congress USDA 
program that, as I understand--you would not know these 
numbers--but as I understand, has already spent $20 million. 
Not one fish has been inspected. Obviously, the FDA has handled 
the inspection of seafood for a long time. And, here we are in 
the Congress going to--already spent another, you know, USDA, 
trying to stand up duplicative inspection, already spent $20 
million on it, and as Senator Shaheen mentioned, it is going to 
cost USDA, the estimate is, $14 million a year to continue 
doing what you already do quite well.
    So, I do not know if you have had a chance to look at these 
GAO reports. Have you?
    Dr. Solomon. Not nine of them, but I have read some.
    Senator Ayotte. And, do you agree that you can handle the 
inspection of catfish, that we do not really need another 
office to inspect catfish?
    Dr. Solomon. The program has worked effectively as far--
from FDA's perspective.
    Senator Ayotte. Right. So, this is a great example of 
government run amok, truthfully, because the notion that we 
already have the FDA doing its job inspecting seafood, and to 
carve out just catfish so that we can spend millions of dollars 
more to have the USDA have another office inspecting catfish, 
which you are already doing quite well, for one species of 
fish--you know, these are the kinds of things that I think 
people look at Washington and they say, what are you all doing 
down there?
    So, I really hope, you know, that we will have some common 
sense on this and allow you to continue to do what you have 
been doing historically rather than creating another--
continuing to plunk millions of dollars into a duplicative 
program.
    I also wanted to follow up, Ms. Wu, on the H-2B issue. I 
share--obviously, I serve in New Hampshire with Senator 
Shaheen, and what I have heard in New Hampshire, many of our 
seasonal businesses depend on these workers. In fact, in 
Portsmouth, Nashua, Laconia, they had the most H-2B visas 
granted. But, the abrupt breaks and a burdensome process, 
especially for smaller business, have been very, very 
difficult. So, when are we going to make sure that we are not 
in the same position we were this year as we look to the 
application process next year, you know, given that this is--
people have to plan on what their workforce needs are?
    Ms. Wu. Thank you, Senator. It has been frustrating, I 
know. It has been frustrating for us trying to run a program. I 
am sure it has been frustrating and frightening, frankly, for a 
lot of small businesses when these abrupt court decisions come 
along and halt us from doing something we have been doing in 
the program, make us suspend this. I mean, it has really been 
very difficult.
    That is why we asked for a stay with the court order so we 
could keep running the program this spring, and now we have 
issued comprehensive rules--even though the Department of Labor 
believes we have the authority to do this on our own, because 
of the legal challenges, we jointly issued these regulations 
with DHS. So, I think we feel like we are at least insulating 
ourselves from that level of legal attack. Unfortunately, we do 
continue to see attacks from all sides on this program, but we 
hope that brings some certainty and stability. And, we also are 
trying to include some provisions that will make things easier 
over the long run for businesses using this program.
    Senator Ayotte. Well, I really appreciate that, because 
just the feedback I have gotten from businesses in New 
Hampshire on the program is that under the administration, it 
has become more complicated, more difficult, more paperwork, 
and as I look at the new H-2B interim and wage final rules that 
were issued on April 29, it is more than 100 pages, and I see 
the burden on employers increasing. So, I hope when you look at 
this that we need to decrease the burden on employers, not 
create more paperwork, especially when many of them, as you 
know, this is something that they do every year and they have 
been in the program already. So, thank you for being here 
today.
    Chairman Vitter. Thank you.
    And next, we will go to Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chair.
    Dr. Solomon, I wanted to ask you about Russian pollack. 
Last fall, I sent a letter, led by my colleague, Senator 
Murkowski, to the FDA Commissioner Hamburg requesting to fix 
this labeling problem. The FDA has authority to change the 
acceptable market name of product from pollack, and not just 
Alaska pollack. The change would prevent Russian pollack from 
being labeled as United States Alaskan pollack. So, we 
requested that the FDA make this change in September and now it 
is May of 2015. So, do you agree that the term ``Alaskan 
pollack'' would give consumers the impression that the product 
is from Alaska?
    Dr. Solomon. So, the determination about the species naming 
is handled by our Center for Food Safety and Applied Nutrition. 
They have what they call a seafood list. I know that your 
submission--that issue is before that group. They look at both 
the species name, they work with fish taxonomists and look at 
the DNA sequencing that talks about these different species, 
and I know they have that issue under review.
    Senator Cantwell. And, so, when will we hear about that 
decision?
    Dr. Solomon. I know they are actively working on it. I do 
not have that. We will be happy to try and get back with you.
    Senator Cantwell. Okay. Do you think, in your view, is the 
Russian pollack industry a sustainable fishing industry 
specifically--scientifically, I guess I would say?
    Dr. Solomon. So, I do not think I am qualified to speak on 
that. We look at fish from a food safety perspective and we are 
not, you know, related to the trade issues or other issues 
associated with it.
    Senator Cantwell. Well, I think we see things, obviously, 
about it. They are known for labor issues. Just last month, a 
Russian pollack catcher/processor vessel sank in the Bering 
Sea. Only 63 crew members survived. Sixty-nine were lost. Forty 
percent of the crew were--they are illegally from countries 
like Burma, Ukraine, Latvia. And, so, these lives are being 
lost because of lack of training and survival skills, and then 
consumers are seeing a product that is labeled Alaska and is 
not really Alaskan pollack. So, we hope that you will get a 
decision through the FDA about this and look at both the way 
the industry is operating and the right that consumers have to 
understand this product. Thank you.
    Thank you, Mr. Chairman.
    Chairman Vitter. Okay. Thank you both very much. We will 
excuse you and call up our second panel of witnesses. As they 
get situated, I am going to go ahead and be introducing all 
three of them.
    We are really pleased to be joined by Dr. Mike Strain, the 
Commissioner of the Louisiana Department of Agriculture and 
Forestry, who was elected to that position in 2007, sworn into 
office in January 2008. Dr. Strain holds a Doctorate in 
Veterinary Medicine from LSU and opened the Claiborne Hill 
Veterinary Hospital in Covington soon after he received that 
degree.
    We are also joined by Mr. John P. Connelly, President of 
the National Fisheries Institute, America's leading trade 
association advocating for the full seafood supply chain. John 
was Chairman of the International Coalition of Fisheries 
Associations and a board trustee of the Marine Stewardship 
Council and is currently a board member of the International 
Seafood Sustainability Organization.
    And, we are also joined by Mr. Frank Randol, President of 
Randol, Incorporated. Frank is a seafood processor from 
Lafayette, Louisiana. He has over 40 years of experience in the 
industry and also owns Randol's Restaurant in Lafayette, 
Louisiana.
    Welcome to all of you, and we will start with Dr. Strain.

   STATEMENT OF MIKE STRAIN, D.V.M., COMMISSIONER, LOUISIANA 
             DEPARTMENT OF AGRICULTURE AND FORESTRY

    Dr. Strain. Thank you. Good afternoon, Chairman Vitter. 
Thank you very much for the opportunity to come here and speak 
today. My name is Dr. Mike Strain. I am the Louisiana 
Commissioner of the Department of Agriculture, Forestry, and 
Aquaculture. I am testifying today on behalf of the Louisiana 
Department of Agriculture.
    State Departments of Agriculture are responsible for a wide 
variety of programs, including food safety, combating the 
introduction and spread of plant and animal diseases, and 
fostering the economic vitality of our rural communities. Our 
department oversees all agriculture activities within the 
State, including the markets for products produced by our 
farmers, and especially what we are here to talk about today in 
seafood, in the crawfish industry, which falls under my 
purview.
    First of all, I would like to thank Ms. Wu and other 
members of the Department of Labor for allowing us to come and 
visit with them on March 23 about this issue and have a very 
open and frank discussion.
    Also with me today is the Director of the National 
Association of State Departments of Agriculture, which I am a 
Vice President, Dr. Barbara Glenn. My statement is also 
consistent with the position of the National Association of 
State Departments of Agriculture, representing commissioners, 
secretaries, and directors across all 50 States and four 
Territories, in the development, implementation, and 
communication of sound public policy and programs which support 
and promote American agricultural industry while promoting and 
protecting the environment and our consumers.
    In order to feed our increased U.S. population, we must 
have a stable agricultural labor supply. The ability of 
seasonal businesses to keep their doors open and retain their 
full-time U.S. employees relies upon having successful peak 
seasons to offset the rest of the year when business is slow. 
During their busy seasons, companies must supplement their 
permanent staff with temporary seasonal employees. Employers 
spend thousands of dollars and hundreds of hours in their 
efforts to fill these positions.
    Unfortunately, even in today's tough economic climates, 
there are not enough local workers available to fill all the 
temporary seasonal positions, and efforts to obtain U.S. 
workers to relocate for temporary seasonal employment have not 
been successful. As a result, businesses must utilize the H-2B 
guest worker program to find seasonal workers and workers for 
their peak workforce needs. The H-2B program is vitally 
important for many industries, including forestry, nursery, 
landscaping, outdoor amusement, restaurant and hospitality, 
tourism, livestock, horse training, sugar, and many others.
    In Louisiana, the seafood industry, which includes 
crawfish, shrimp, crabs, oysters, and catfish, is in a critical 
situation because seafood processors traditionally cannot fill 
their temporary or seasonal vacancies with U.S. workers. Many 
of these businesses are located in rural areas that simply do 
not have sufficient populations to supply their extra workforce 
needs. Additionally, many who are willing to work want full-
time, year-round jobs. Indeed, many of the jobs in these 
locales that are year-round and are full-time depend on the 
various processors operating for their own jobs and business 
operations.
    In 2014, Louisiana hired 5,546 H-2B workers. For each H-2B 
worker, it is estimated that 4.64 American jobs are created and 
sustained.
    Over the last ten years, Louisiana has seen many natural 
challenges to the agricultural sector of our economy, with 
Hurricanes Katrina and Rita, floods on the Mississippi River, 
spilling water through the spillways into the Atchafalaya 
Basin, and drought. The H-2B regulations released on April 29, 
2015, by the U.S. Department of Labor and the U.S. Department 
of Homeland Security could impact an already fragile industry's 
economic competitiveness.
    The seasonal industries have had to weather several years 
of regulatory instability. The H-2B wage rule that the 
Department of Labor adopted on January 19, 2011, imposed a new, 
untested wage determining methodology that would significantly 
increase costs for small and seasonal small businesses. After 
being blocked by Congress in April 2013, the DOL issued an 
interim final rule that included the same methodology for 
setting wages, but recognized the importance of State wage 
surveys. Unfortunately, the new rule released two weeks ago is 
virtually identical to the rule that was blocked by Congress, 
causing additional obstacles for employers in the program.
    In December 2014, the Department of Labor announced that it 
would no longer allow the private wage rate surveys that were 
developed by many State Departments of Agriculture, including 
Louisiana. My staff has spent countless hours gathering 
information to accurately depict the current wages that the 
industry is paying in our geographic location. This action 
forced employers into accepting higher prevailing wages that 
are not representative of the wages that are being paid 
domestically.
    To make matters worse, the H-2B worker caps have already 
been exceeded and now many seafood processors have not received 
the workers that they need. Seafood processing has already 
begun early in the spring, and with the crawfish industry 
especially, it is time sensitive. These actions have a negative 
impact on the seafood industry and related commerce sectors, 
such as restaurants, et cetera.
    Two months ago, the LSU Ag Center conducted a rapid 
economic analysis of the recent H-2B policy changes from the 
U.S. Department of Labor for the Louisiana seafood industry. 
The assessment was conducted in response to potential changes 
in the cost and availability of labor stemming from a mid-year 
cap on H-2B permits and the Department of Labor announcement 
that it would no longer accept the private wage rate surveys. 
Results indicate that for every one dollar of employee 
compensation created by the seafood preparation and packaging 
industry in Louisiana, employee compensation increased by $2.06 
across all sectors of the Louisiana economy. This includes the 
original one dollar of employee compensation created by the 
seafood preparation and packaging industry plus $1.06 of 
induced multiplier effects across all sectors of the economy.
    Total income generated by H-2B visa workers in the 
Louisiana seafood industry is estimated between $36 and $43 
million. Based on the assumption of $35 million in revenue, the 
loss of this revenue for any given number of firms would lead 
to a total reduction in labor income across the entire 
Louisiana economy, eventually leading to a number of companies 
closing. The economic impact of two processing facilities 
closing is $5.3 million, and with five firms shutting down, 
$13.3. Louisiana has already faced a number of processing 
facilities closing due to hurricanes and oil spills and the 
industry simply cannot be sustained without a stable workforce.
    I am certain that not only is the seafood industry in 
Louisiana impacted, but the entire United States seafood 
industry will be affected by these actions. Our markets are 
subject to particularly fierce competition from abroad. For 
example, the Chinese have been extremely aggressive in trying 
to corner the U.S. crawfish market. This predatory practice and 
behavior began in 1993 and it has continued. The Chinese 
presently control over 50 percent of the market and are poised 
to capture even a larger market share if our producers are put 
at a further competitive price and labor disadvantage.
    Without temporary H-2B guest seasonal workers to process 
seafood, Louisiana seafood processors would shut down, 
eliminating the primary market for our fishermen and our 
farmers to sell their catch. As a result, foreign seafood would 
gain a stronger foothold in the U.S. market and our fishermen 
and farmers who produce and harvest crawfish, shrimp, crabs, 
oysters, and catfish would be devastated and a key segment of 
the Louisiana economy crippled.
    Once we lose the processors, we would not be able to depend 
on them coming back in future years. Therefore, the losses 
because of the processors scale back and do not have the 
ability to operate during the season will have irreparable and 
bad repercussions now and in the future.
    The short-term consequence of an immediate expulsion of 
this vital segment of the workforce will cause a production 
crisis in a wide variety of seafood processing, field and 
nursery crops, sugar processing, forestry, livestock, 
restaurant industry, and others. This would leave the United 
States and our State of Louisiana no alternative but to import 
many food products from countries with surplus foreign labor. 
This is unacceptable. We must do everything in our power to 
grow and support America's jobs and economy.
    We are asking for your help. We must streamline and 
expedite the H-2B process. We need a working system without 
overburdensome rules, unrealistic time tables, and outright 
road blocks. Neglecting the labor needs of agriculture will 
raise the costs of production in a way that harms farmers, 
fishers, and industries throughout America.
    I appreciate your time and encourage you to work with us to 
find workable solutions, ways that we can facilitate rather 
than making it so difficult to where our processors and our 
industries cannot operate. Where we are at currently, we have a 
large crawfish harvest and we do not have enough peelers to 
process it and that puts us in a severe economic state, and I 
am sure Mr. Randol will address that, as well.
    Thank you.
    [The prepared statement of Dr. Strain follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    Chairman Vitter. Thank you very much, Dr. Strain.
    We will now go to John Connelly. John, welcome.

 STATEMENT OF JOHN P. CONNELLY, PRESIDENT, NATIONAL FISHERIES 
                           INSTITUTE

    Mr. Connelly. Thank you, Chairman Vitter, for inviting the 
National Fisheries Institute to present our views today. Our 
comments will include a brief introduction, the importance of 
H-2B visas to seafood processors, the economics of the American 
seafood industry, and the U.S. seafood safety system and its 
results.
    NFI is the nation's most comprehensive trade association. 
Our members include harvesters, like those on ``Deadliest 
Catch,'' to importers who enable us to enjoy seafood from 
around the globe, to processors who put fish in a form that 
consumers recognize, to retailers and restaurants. We do 
represent all geographic regions, and we were particularly 
proud to have had the late Louisiana seafood leader, Mike 
Voisin of Motavatit Seafood in Houma, as our Chairman.
    On H-2B visas, a functioning H-2B system is essential to 
seafood processors. Senator Mikulski captured many of the 
Senator's concerns in her letter to Secretary Johnson last 
week. Quote, ``The lack of available temporary foreign workers 
has caused chaos among businesses in Maryland that depend on 
the H-2B program. More than 40 percent of Maryland's seafood 
processors have been unable to get the workers that they need 
for the 2015 crab season.'' I think Dr. Strain pretty much said 
it all, and I think that is reflective of the rest of the 
seafood community in the U.S.
    On economics, seafood is the most globally traded food 
commodity. That benefits our fishing communities, as we send 
high quality and bountiful American seafood to Northern Asia 
and throughout Europe. Trade also benefits the more than 
525,000 Americans that process, distribute, and sell imported 
seafood. Those jobs are found in nearly every State and are an 
important reminder that trade benefits the U.S. not just when 
we export.
    Seafood trade also benefits farm States in two ways. About 
18 percent of all soy goes into fish farms, many of those fish 
farms in Asia. And, two, the countries to which American 
farmers increasingly seek to send our ag products are countries 
that export seafood to America. We cannot expect to open Asian 
markets to U.S. pork, beef, poultry, corn, dairy, and soy if we 
shut off access to our seafood markets.
    To seafood safety. NFI has been a long and strong supporter 
of seafood safety in word and deed. NFI has worked closely with 
academia and regulators to understand how to best implement 
HACCP. NFI joined you, Mr. Chairman, as an early and strong 
supporter of FSMA. And, NFI works with the Alliance for a 
Stronger FDA to urge Congress to appropriate the needed 
resources for the agency to meet its statutory obligations.
    As Dr. Solomon aptly and fully described the HACCP system, 
I will not duplicate that extensive discussion.
    I will close, though, speaking to results. Results, after 
all, are what matters. The fact is, the Centers for Disease 
Control analyzed and reported illnesses from all foods. Over 
the five-year period ending in 2010, CDC found that 141 of 
122,000, that is, 0.001156, or 0.12 percent of illnesses were 
caused by imported seafood.
    Most of us love baseball. It is a great day to go down to 
the Nats game. But, we recall going to the games with our dads, 
clutching that mitt, and hoping to catch that foul ball. 
Unfortunately, we often came home crestfallen because we 
rarely, if ever, did, because the chance of catching a foul 
ball is the exact same as becoming sick from imported seafood, 
0.001156, or 0.12 percent.
    As an example of the effectiveness of the FDA, and again, 
while the hearing focus is not on the USDA catfish program, I 
did want to acknowledge the leadership of Senators Shaheen and 
Ayotte and others on this committee in working in a bipartisan 
manner to eliminate a program that USDA's own risk experts have 
said will not improve public health, primarily because the FDA 
regulation of catfish, both domestic and imported, has reduced 
illnesses to less than two per year. That is a safe product.
    It is because of the stringent requirements of HACCP, a 
system required for both domestic and imported seafood, a 
system that requires problems to be fixed thousands of miles 
away from America and not caught at the border, that Congress 
acknowledged and exempted companies in seafood HACCP compliance 
from some of FSMA's key provisions. NFI agrees with Congress' 
determination. The safety of domestic and imported seafood is 
excellent.
    Thank you.
    [The prepared statement of Mr. Connelly follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    
    Chairman Vitter. Thank you very much.
    And now, we will hear from Mr. Frank Randol. Frank, 
welcome.

    STATEMENT OF FRANK B. RANDOL, PRESIDENT, RANDOL, INC., 
                         LAFAYETTE, LA

    Mr. Randol. Thank you, Chairman Vitter, and for the members 
that are not here, Ranking Member Shaheen, Senator Cardin. I 
want to thank you for inviting me here to testify about the 
guest worker program that we refer to as H-2B.
    The program is a vital part of the survival--this program 
is vital to the survival of seafood processing, especially in 
Louisiana and Maryland. The program--I will--and I am getting 
shook. Excuse me. Just let me go.
    Chairman Vitter. Sure.
    Mr. Randol. It is vital. I will submit my statements for 
the record, in addition to a number of exhibits that will 
provide a useful reference for the committee. I will now 
provide my oral comments.
    I am here to express my concerns for the future of my 
business and other small businesses that struggle daily to 
succeed. I started Randols in 1971, starting small--one man, 
one truck. After four decades, Randols has grown in size and 
scope. We are transitioning to the next generation. The future 
is in my sons that work my business, allowing me to pull back.
    Hurdles over the last four years were detailed by the 
Commissioner--floods, hurricanes, oil spills, lack of product, 
predatory imports from China, yet the single most pressing 
issue for us has always been the lack of labor.
    In the 1970s, when I started my business, I was lucky 
enough to have the refugees from Vietnam come in, so we brought 
in roughly 40 to help us get through that time. Over the course 
of the years, we came to the 1990s, when that started to wane 
just a little bit. We discovered the H-2B program and started 
bringing in the guest workers from Mexico. We started with 40, 
dwindled to 30, now we are to 25.
    I am here to talk about the H-2B guest worker program, the 
legal--legal--temporary workers that we get from visas to 
support businesses from farming, fishing, to restaurants, 
wholesale, and retail food operations. The attached 
declarations that I have submitted from Dr. Strain, filed in 
our suit of 2011 against the Department of Labor, gives an 
overview of the importance of the H-2B program to the Louisiana 
economy.
    The H-2B application process has been a growing and 
expensive challenge. Since DOL took over the initial wage 
certification from the State in 2008, the process has become 
increasingly more time consuming and costly. Initially, I did 
the paperwork myself, but now, I have to turn it over to 
someone else more qualified to run through the governmental 
hoops. Many people are using legal or international immigration 
attorneys to do their paperwork. The stack of paperwork here 
represents what was submitted on the October 2014 application 
for the first cap. The same amount was resubmitted for the 
second cap, so it would be twice that stack.
    We missed both caps. Our plant was scheduled to open 
February 2015. We are still waiting to see if we will be 
getting any workers this year so we can open and salvage a part 
of it. Last year, we were processing between 6,000 and 8,000 
pounds of seafood daily, and like I said, right now, we are 
shuttered.
    Often, we hear the remark, why, if you pay more money, then 
you will get the labor you need. We feel that that is not the 
case. It is more about the job than the money in our seafood 
industry. After missing the cap--both caps--we tried something 
different, seven prison trustees. After one day, one prison 
trustee said, ``I would rather go back to jail than to peel 
crawfish.''
    [Laughter.]
    The warden picked him up, brought him back, we did not see 
him again. The remaining trustees continued to shrink until 
after a two-week effort, they were all gone.
    Now, union activity has started to increase and created 
problems for us, and recently, the NLRB has surfaced and 
getting involved. We have referenced this in documents that we 
brought as exhibits.
    We need--urgently, we need fixes to save the H-2B program 
for small businesses. Congress has to take action now. The lost 
opportunity to fix the problems created by DHS and DOL last 
year have already done severe harm in Louisiana. Some of 
Louisiana's small businesses will not recover. Others may be 
forced to cross the border. As in the past, we need immediate 
Congressional action to block the new DHS and DOL proposals of 
last Wednesday. The H-2B Workforce Coalition has submitted a 
statement which we have attached as an exhibit.
    In addition, we need to resume the H-2B returning worker, 
guest worker exemption from the annual cap. We also have to 
return to the authority of determining prevailing wages to the 
States. Additionally, we feel we need a seat at the table with 
DOL, just like the National Guest Workers Alliance. SBA's 
Office of Advocacy needs to be more aggressive in confronting 
DHS and DOL as policy changes are being discussed.
    And, part of what came up today, as I was listening to the 
testimony, is what we have been hearing, that somehow, what is 
happening here was caused by a judge or was caused by industry. 
You know, we just do not see it that way. We are small people, 
but we do know that no matter where it was caused or what, 
somehow, when something like this happens, if there is an error 
or whatever, the people that make the error still have their 
jobs. But in our case, we are small. We do not survive.
    So, there is some give and take that has got to take place 
here, and that is really why I am here. Somebody had to come up 
and tell you about what is going on back home, the little guys 
that are having problems. And, some of the big guys have the 
same problem. Hershey had these problems the last part of--from 
2007 on to 2011 when they decided to open up in Monterrey, 
Mexico, and most of their growth has already been funneled into 
that plant for their--American chocolate is now the Americas' 
chocolate.
    We have one right here, Elmer's, Louisiana, Ponchatoula, 
largest employer in Ponchatoula. He hires--he uses H-2B. He 
missed the cap and he is struggling. He is trying to make his 
orders for this year. Small business. He is up against somebody 
like Hershey. I am not saying that they are going to Mexico. 
This is good chocolate. It needs to stay home.
    I would be happy to answer any questions you may have. 
Thank you again.
    [The prepared statement of Mr. Randol follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Vitter. Thank you very much, Frank, and let us 
start with you, since you offer such a great real world 
perspective.
    If you can--I know you touched on it in your testimony--
walk through the specific, concrete impact to your business 
that the various recent Department of Labor changes and rulings 
have had, number one. Number two, if you have any reaction so 
far--and it may be too new, maybe you do not--but, if you have 
any reaction so far of the new Department of Labor guidance 
moving forward on wage surveys.
    Mr. Randol. Let me start from the back. It is more of the 
same, as I see it, from DOL. We have reviewed this stuff. It is 
stuff that does not work. I mean, program rules, 75 percent 
guarantee. Hurricane comes, I cannot turn them back, got to 
keep them for ten months and got to pay them. That does not 
work in Louisiana.
    As far as the parity, if I pay one person this, another 
person has to be paid the same. In the seafood industry, we pay 
for productivity. You know, we might bring them in at entry 
level, but we give them the incentives through piece work. They 
accelerate. They get better. They might enter at a nominal 
rate, but a lot of these people get up to these larger rates, 
$12 to $15 an hour, peeling crawfish. That is attainable.
    Chairman Vitter. Just to take those two examples, as far as 
you know, is any of that mandated by statutory law, or is it 
just a creation of the Department of Labor?
    Mr. Randol. Creation. These mandates are killers for us. 
You know, you all write the laws, they interpret the laws, and 
then we try to say that is not what you meant, and that is what 
I have been doing for the last decade. You saw me up here in 
2006. It was very easy to predict or see where we were going, 
and now we are here, you know, when I first came to discuss 
this. The pain is in reality, and the pain to me. I feel it 
because I am in it and I cannot get out of it.
    We got through the process. We missed the first cap. I have 
been at this for a half a year, trying to make a deadline that 
was imposed--I can only start four months before I need them, 
four months, and I have been at it for six months and I am 
still not in the last step, which would gain me access in six 
weeks to bring them in. The real lifting is at the border to 
determine whether these people really need to come in. We 
demonstrated that we do not have the workforce here, but----
    Chairman Vitter. Frank, if I can interrupt for a second, if 
I can just through the record ask Ms. Wu, we talked about two 
specific requirements that you mentioned that are just flat out 
unworkable in the real world from your perspective. Ms. Wu, if 
you could submit for the record any statutory basis that 
requires the Department of Labor to do that, because from what 
I see, there is none. Thank you.
    Go ahead, Frank.
    Mr. Randol. Okay. The last one, we see that a lot of this 
stuff is outlined in the H-2B Coalition paper, but what comes 
to mind is open up a job order that starts four months out and 
you have to take it 20 days to where these people are coming 
inside the country and leave it open. So, normally, we--you 
know, we have demonstrated that there are no people that want 
this job. But these are just some of the few, and what I have 
offered to DOL is, you know, the NGA apparently has their ear. 
Let us let small business somehow be in the process so that we 
do not see the results of a mandate, but we have a team effort 
to try to move forward. Because, like I say, when they impose 
these things, we feel the pain. A lot of people go out of 
business.
    Chairman Vitter. Right. Let me ask both you and Dr. Strain 
if you have any specific reaction yet to their new guidance 
about allowing private, including State, surveys. Is it 
workable? Is it not? Is it reasonable? Is it too narrow? Do you 
have any reaction yet?
    Dr. Strain. Mr. Chairman, the reaction I have is that we 
have been using the State prevailing wage rate surveys for many 
years, and when you look at the final rule, it says they will 
be used in limited exceptions. And, so, now we have several 
different methodologies to determine a wage rate. I mean, 
simply let us continue to use the prevailing wage rate rule.
    If you look at it in the seafood industry and the crawfish 
industry, the State prevailing wage rate, as determined by the 
LSU Ag Center and my office, it is currently $8.66. That is a 
floor. But, they are also paid on piecemeal, and you have 
some--you have workers that make $12, $15, $18 an hour 
depending on production. This sets a minimum wage.
    So, let us not--if you look at what is in the interim rule 
there, it is very--it is complicated. We need to simplify this.
    Chairman Vitter. Okay. And, Dr. Strain, I also wanted to 
touch on my Imported Seafood Safety Act.
    Dr. Strain. Yes, sir. Please.
    Chairman Vitter. As you know, we have worked on it 
together. We have talked about it. As you know, it would give 
States more power to increase seafood inspections for foreign 
imports----
    Dr. Strain. Yes, sir.
    Chairman Vitter [continuing]. In conjunction with the 
Federal Government. We have talked about this before, 
essentially empowering you to reinforce the effort of the 
Federal Government to put more cops on the beat. We do this in 
many other areas where the primary regulation is at the Federal 
level, but related State entities can help enforce that. What 
is your view on that and how it could improve seafood safety?
    Dr. Strain. Mr. Chairman, the American public, when they go 
to the market, 100 percent of the mammalian proteins for beef 
and pork and 99 percent for poultry--there is a specialty thing 
for poultry, if you have a very small amount, less than 10,000 
chickens, you can sell them, but it is very tiny--but all those 
proteins are inspected. They are monitored from the farm all 
the way through slaughter. They are inspected at slaughter and 
they are tested and back-traced. The American public believes 
their seafood that they consume is inspected and safe at that 
same level.
    If you look at the CDC report, and I am going to quote 
their press release, March 14, 2012, it says that we currently 
import about 85 percent of our seafood, 60 percent of our fresh 
produce, and we currently import about 50 percent of our 
crawfish. And, I quote, ``CDC experts reviewed outbreaks from 
their Foodborne Disease Outbreak Surveillance System from 2005 
to 2010. During that five-year period, 39 outbreaks, 2,348 
illnesses, were linked to imported food from 15 countries. Of 
those outbreaks, 17, half, occurred in 2009 and 2010. Overall, 
fish, 17 outbreaks, were the most common source of implicated 
imported foodborne disease outbreaks, followed by spices. 
Nearly 45 percent of the imported foods causing outbreaks came 
from Asia.''
    The American public assumes that we are doing this testing. 
We know that we are not. Less than three percent of the 
imported seafood. Eighty-five percent of the seafood consumed 
in the United States is imported, and less than three percent 
is being tested.
    Furthermore, when you look at that particular issue, if you 
look in a container of seafood, there could be, in the case of 
crawfish, there could be up to 20 different lots--20 different 
lots, different origins, coming together. So, when you think 
that it is all a blended product and you take one sample and 
that it is consistent with everything in the container, it is 
not.
    And, when you look at the particular issues that we are 
talking about, we are talking about antibiotics that are banned 
from the United States, such as chloramphenicol, chemicals such 
as malachite green that are banned from the United States.
    And, so, when you look at that, it is imperative that we 
all be on the same level playing field. And, when you start 
talking about why we need to test this seafood and you say, 
well, how are we going to stop port shopping, well, it is very 
simple, is that we need to make sure that we have eyes on at 
the processing level in those foreign countries, and I think 
some of that will take into effect in the future under the Food 
Safety Modernization Act, but that is somewhere in the future, 
and that container be accompanied by a certificate stating that 
it has been tested, and that when--if you get--and if that 
container comes in and you retest that container and it is not 
what it says, then it can either return directly and be 
certified to go back to the country of origin or be destroyed 
on site.
    Now, our department, I am responsible--I oversee the 
Department of Animal Health and Food Safety and we have a food 
inspection program. We also work hand in hand with the USDA 
Animal and Plant Health Inspection Service, to where we do 
joint meat inspection. We do State plants and we can work 
jointly on Federal plants where those products can cross State 
lines. But, I am not permitted to test imported seafood. Now, I 
can look at the containers to make sure that, and as I, as the 
Commissioner of the Office of Metrology, Weights, Measures, and 
Standards, that if there is a pound of seafood in there, there 
is supposed to be a pound. But, we are not allowed to take 
samples and test it for contaminants.
    So, just like we are having a working relationship and we 
have a cooperative endeavor agreement with the Federal 
Government to do the other protein inspections, let us have the 
same arrangements where my inspectors who are out at those 
plants looking at other things--and we do label inspections for 
the Federal Government, as well--give us the authority under 
cooperative endeavor agreement to be a further arm. We have 
testing labs in Louisiana. We do half of the seafood testing.
    Chairman Vitter. And, so, if that were done, which I 
certainly support and am advocating through my bill, that would 
be fully consistent with the Federal standards. It would not be 
using different standards in any way. You would just be 
additional cops on the beat, correct?
    Dr. Strain. That is correct. And, if you--and, what we do, 
our standards, our procedures are in alignment with the Federal 
procedures.
    Chairman Vitter. Right. Right.
    Dr. Strain. And, we should have standards as high as the 
European Union.
    Chairman Vitter. Right.
    Dr. Strain. They test, and I believe it is up to 15 to 20 
percent of all the products going to the EU. We should meet at 
least those standards.
    Chairman Vitter. Right. Well, thank you all very much.
    We are going to wrap up, but in doing so, let me also ask 
through the record if Dr. Solomon could supplement his 
testimony with a response to this question. Dr. Strain 
mentioned the use of chemicals on imported seafood that are 
banned in the United States. Why should not that practice be 
presumptive grounds to not allow that seafood into the country, 
if Dr. Solomon could respond for the record.
    Thank you all very much. I think this was very informative 
and productive, particularly focusing on Department of Labor 
activity and regulations and the safety regime for seafood 
imports.
    Thanks very much, and our hearing is adjourned.
    [Whereupon, at 3:54 p.m., the committee was adjourned.]

                      APPENDIX MATERIAL SUBMITTED
                      
                      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                     
                      


  

                                  <all>
</pre></body></html>
